No. 20-441

;In tale
upireme (Court of fly Pniteb fate
Minnesota Sands, LLC,
Petitioner,
vs.

County of Winona, Minnesota,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF MINNESOTA

BRIEF IN OPPOSITION TO PETITION FOR WRIT OF CERTIORARI
RULE 33.1(h) CERTIFICATE OF WORD COUNT
As preparer of the document above, I hereby certify that the Brief in Opposition
to Petition for Writ of Certiorari, Docket no. 20-441, complies with Rule 33.1 in that it
contains the proper typeface in the proper size. I further certify that the document
contains gi(041 words total, excluding the parts of the document that are exempted
by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

P--/Cr

, 2020.

lU
Stephen M. West
Bachman Legal Printing
Subscribed and sworn to before me this 4th day of December, 2020.
EDWIN R. MOTCH
Notary Public

NOTARY PUBLIC - MINNESOTA
My Commission Expires Jan. 31, 2025
- 7`1
.,4,

2020 — BACHMAN LEGAL PRINTING — FAX (612) 337-8053 — PHONE (612) 339-9518 or 1-800-715-3582

No. 20-441
cAn

tal.e

Sufirentt (Court of tile pnifebSfate
Minnesota Sands, LLC,
Petitioner,
vs.

County of Winona, Minnesota,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF MINNESOTA

BRIEF IN OPPOSITION TO PETITION FOR WRIT OF CERTIORARI
RULE 33.1(h) CERTIFICATE OF WORD COUNT
As preparer of the document above, I hereby certify that the Brief in Opposition
to Petition for Writ of Certiorari, Docket no. 20-441, complies with Rule 33.1 in that it
contains the proper typeface in the proper size. I further certify that the document
words total, excluding the parts of the document that are exempted
contains
by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

(2.-/cf

, 2020.

Stephen M. West
Bachman Legal Printing
r d sworn to before me this 4th day of December, 2020.
Subscribed ai
EDWIN R. MOTCH
_0.0

No ary Public

= NOTARY PUBLIC - MINNESOTA \
My Commission Expires Jan. 31, 2025

2020 — BACHMAN LEGAL PRINTING — FAX (612) 337-8053 — PHONE (612) 339-9518 or 1-800-715-3582

